1)- BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Sheriff Ken
Mascara, in His Official Capacity as Sheriff of St.
Lucie County, Florida and Christopher Newman v.
Viola Bryant, as Personal Representative of the Estate
of Gregory Vaughn Hill, Jr., was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 9th day of October, 2020:
John Michael Phillips
Kirby William Johnson
Phillips & Hunt
208 N. Laura St., FL 4
Jacksonville, FL 32202
(904) 444-4444
jmp@floridajustice.com
kirby@floridaj ustice .com
Counsel for Respondent
Summer M. Barranco
Counsel of Record
Richard A. Giuffreda
Purdy, Jolly, Giuffreda,
Barranco & J isa, P.A.
2455 East Sunrise Boulevard
Suite 1216
Fort Lauderdale, Florida 33304
(954) 462-3200
summer@purdylaw.com
richard@purdylaw.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 9, 2020.

Donna J . Wo f
Becker Gallagher Le
Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

0~~?1

cifh-- rJ

Notary Public

I

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commiaaion Exp!ros
re'1ruary 14, 2023

